           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     ORIGINAL SOCIAL SECURITY
  NUMBERS ASSIGNED TO U.S. CITIZENS
          AGE 12 OR OLDER

    June 2007      A-08-07-17043




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      June 18, 2007                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Original Social Security Numbers Assigned to U.S. Citizens Age 12 or
           Older (A-08-07-17043)

           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) process for
           assigning original Social Security numbers (SSN) to U.S. citizens age 12 or older.

           BACKGROUND

           In the United States, citizens usually receive an SSN before age 12. Because U.S. tax
           regulations require that parents provide a child’s SSN—or an Individual Taxpayer
           Identification Number if he or she does not qualify for an SSN—for the child to qualify
           for an exemption or child tax credit, most parents have a financial incentive to obtain a
           child’s SSN before age 1. 1 Additionally, although not legislatively required, throughout
           U.S. society, parents are asked for their children’s SSNs to receive other benefits and
           services. For example, many medical providers and schools require a child’s SSN for
           treatment and enrollment, respectively. However, some U.S. citizens do not obtain an
           SSN until age 12 or older because they have lived outside the United States since birth
           or have religious beliefs that prevented them from doing so earlier in life. Given the
           rarity of SSN applications for older U.S. citizens, SSA has established special
           requirements for processing these requests.

           When a U.S. citizen age 12 or older requests an original SSN, he or she must
           complete, sign, and submit an Application for a Social Security Card (Form SS-5) to an
           SSA field office. 2 Before approving the SSN application, SSA requires that each of
           these applicants provide acceptable documentary evidence of age, identity, and
           U.S. citizenship. 3 In addition, SSA conducts a mandatory in-person interview with
           original SSN applicants age 12 or older to ensure the validity of the request. The
           interview process is designed to prevent SSA from assigning an SSN to an individual
           1
               See 26 U.S.C. § 6109(a) and 26 U.S.C. § 24(e).
           2
               SSA Program Operations Manual System (POMS), section RM 00202.001 A.
           3
               POMS, section RM 00203.020(2).
Page 2 - The Commissioner


who already has one and to preclude an individual from assuming a false identity. 4
Before SSA assigns an SSN to these applicants, a supervisor must approve the
application and enter his or her personal identification number in SSA’s Modernized
Enumeration System (MES). 5

Since March 1, 2005, SSA has required that field office personnel processing SSN
applications use the Agency’s “SS-5 Assistant,” a Microsoft Access-based application.
The SS-5 Assistant works with MES and does not affect SSA’s enumeration policies
and procedures. Overall, the SS-5 Assistant is intended to increase control over the
SSN application process, improve the quality of data used to assign an SSN, and
enable management to better control this workload. This program provides field office
personnel processing SSN applications structured interview questions and requires
certain data to complete the application process. The SS-5 Assistant also prompts field
office personnel to provide additional applicant information when processing an original
SSN application for a U.S. citizen age 12 or older.

To accomplish our objective, we reviewed SSA’s policies and procedures for assigning
an original SSN to U.S. citizens age 12 or older. In addition, we visited four SSA field
offices to gain an understanding of the assignment process. We also identified a
population of 23,924 records for which SSA assigned original SSNs to individuals
coded as U.S. citizens and age 12 or older in Fiscal Year (FY) 2005. From our
population, we randomly selected a sample of 275 records to determine whether SSA
personnel complied with Agency policies and procedures when processing these
applications. Our sample of 275 records contained 137 foreign-born and 127 U.S.-born
individuals whom SSA coded as U.S. citizens. We did not analyze 11 sample records
because we subsequently determined SSA did not assign these individuals an original
SSN during our audit period. 6

Appendix B includes a detailed description of our scope and methodology, and
Appendix C includes our sample appraisals.




4
    POMS, section RM 00202.055.
5
 POMS, section RM 00202.055(D)(5). SSA field office personnel use MES to process applications for
SSNs by recording evidence reviewed and accepted from the applicants.
6
 SSA assigned these individuals a “new” SSN (not an original SSN) during the audit period. These “new”
SSNs were assigned because of issues related to (1) religious/cultural objections; (2) harassment, abuse,
or life endangerment; or (3) SSN misuse and disadvantage.
Page 3 - The Commissioner


RESULTS OF REVIEW
SSA recognized vulnerabilities associated with assigning original SSNs to U.S. citizens
age 12 or older and therefore established specialized procedures for these applications.
However, these procedures can only be effective if SSA personnel comply with the
requirements. Of the 275 original SSN applications we reviewed, 89 (32 percent)
contained at least 1 compliance error. 7 Based on the errors we identified, we estimate
SSA personnel did not fully comply with SSA’s procedures when assigning
7,743 original SSNs to U.S. citizens age 12 or older in FY 2005. Additionally, we
identified weaknesses in existing controls we believe SSA should address to further
reduce vulnerabilities associated with the assignment of SSNs to individuals age 12 or
older.

As shown in Table 1, the most common occurrences of noncompliance included SSA
field office personnel (1) incorrectly coding the citizenship status of SSN applicants,
(2) not recording why U.S.-born individuals in our sample had not been assigned an
SSN, and (3) not requiring and/or documenting adequate evidence to process the SSN
applications.

                Table 1: Original SSN Applications with Compliance Errors

                             Type of                                        Number of
                        Compliance Error                                   Occurrences
Noncitizens Coded as U.S. Citizens                                             36
Reason for SSN Assignment Not Recorded                                         45
Insufficient Evidence Required/Documented                                      10
Total Number of Noncompliance Errors                                           91
Total Number of Sampled SSNs with at Least One Error                           89
Percent of Sampled SSNs with at Least One Error                                32

Additionally, we identified an area where SSA could improve the integrity of the SSN
assignment process by requiring that field office personnel verify all Report of Birth
Abroad documents submitted—as the Agency does with other U.S. birth registration
documents.

Some Field Offices Incorrectly Coded Noncitizens as U.S. Citizens

SSA policy requires that all applicants for original SSN cards who allege they are
                                                                    8
U.S. citizens submit documentary evidence to prove citizenship. Acceptable evidence
includes a birth certificate showing a place of birth in the United States, a U.S. passport,
a Consular Report of Birth Abroad of a Citizen of the United States of America (Form


7
    Two of the SSNs tested had more than one compliance error.
8
    POMS, section RM 00203.300(A)(1).
Page 4 - The Commissioner


FS-240), a Certificate of Naturalization (Form N-550), or adoption finalization papers. 9
However, in 36 (13 percent) of the 275 SSNs reviewed, SSA personnel incorrectly
coded noncitizens as U.S. citizens when processing the applications. These
36 individuals were foreign-born but were not U.S. citizens. As such, we estimate SSA
incorrectly coded about 3,132 noncitizens as U.S. citizens and assigned them an
original SSN in FY 2005.

In all cases, the documentation we reviewed indicated either these individuals were not
U.S. citizens or SSA did not sufficiently document U.S. citizenship. For example, field
office personnel entered work authorization forms, arrival and departure documents,
and alien numbers in MES or SS-5 Assistant that did not support U.S. citizenship.
Furthermore, our review of the Department of Homeland Security’s (DHS) Systematic
                                           10
Alien Verification for Entitlements (SAVE) program confirmed that almost half of the
noncitizens were either a lawfully admitted permanent resident, refugee, temporary
worker, or temporary visitor for business. SAVE could not provide immigrant
classifications for the remaining miscoded numberholders. Based on a review of our
findings, SSA confirmed these individuals should have been classified as noncitizens.

Our recent audit work indicates errors in recording the citizenship status of SSN
applicants is a recurring problem. In December 2006, we issued a Congressional
Response Report, Accuracy of the Social Security Administration’s Numident File
(A-08-06-26100), in which we reported that about 8 percent of all foreign-born
U.S. citizen Numident records tested were misclassified—and the numberholders were
not actually U.S. citizens. Additionally, in August 2004, we issued a report, Compliance
with Policies and Procedures When Processing Noncitizen Social Security Number
Applications at Foreign Service Posts (A-08-04-14060), in which we identified cases
where SSA incorrectly coded U.S. citizens as noncitizens.

We believe incorrectly coding noncitizens as U.S. citizens diminishes the integrity of
SSA records and could provide unintentional benefits to those applicants whose
citizenship status was miscoded. For example, the Employment Eligibility Verification
System (EEVS), formerly known as the Basic Pilot, is a DHS program supported by
SSA and provides employers a tool for determining whether newly hired employees
reported the correct name, SSN, and date of birth and are authorized to work in the
United States. If noncitizens are incorrectly classified as U.S. citizens in SSA records
(and allege U.S. citizenship to an employer), EEVS would not require that DHS
determine their immigration and work status before confirming employment eligibility. A
mandatory employment eligibility system has been proposed in both House and Senate
bills for all newly hired U.S. employees. If such legislation is enacted, the accuracy and


9
    POMS, section RM 00203.310(B).
10
  DHS provides and maintains the SAVE program for benefit-granting agencies, such as SSA, to verify
that alien applicants meet immigration status eligibility requirements. To properly assign SSNs to aliens,
SSA uses SAVE to confirm the authenticity of immigration documents submitted to support the SSN card
application and to verify the immigration status and work authorization of applicants.
Page 5 - The Commissioner


integrity of SSA’s records regarding the numberholders’ citizenship status would be
essential to ensuring correct employment eligibility feedback to employers.

SSA has taken steps to assist field office personnel in properly documenting citizenship
status by modifying SS-5 Assistant to contain a stand-alone screen for foreign-born
applicants who allege U.S. citizenship. 11 SSA representatives told us they believed this
modification prevents field office personnel from improperly coding applicants’
citizenship status. Because improperly coding the citizenship status of SSN applicants
has been a recurring problem and none of the noncitizens in our sample were
processed using the stand-alone screen in SS-5 Assistant, we will continue to monitor
this issue in future audit work.

Field Offices Did Not Routinely Document Why U.S.-Born Applicants Had Not
Been Assigned an SSN

SSA policy requires that field office personnel include in the “Evidence Submitted” block
of Form SS-5 and in the “Additional Remarks” field in SS-5 Assistant, why U.S.-born
                                                                       12
applicants age 12 or older had not previously been assigned an SSN. However, in
45 (16 percent) of the 275 SSNs selected for review, SSA personnel did not comply
with this procedure. As such, we estimate SSA did not document why about
3,915 applicants had not been assigned an SSN. Of the 127 U.S.-born numberholders
tested in our sample, SSA did not document a reason for 35 percent of these
individuals. 13

Some field office personnel with whom we spoke were not aware that SSA policy
requires that they document why U.S.-born applicants age 12 or older had not
previously been assigned an SSN. In addition, although SS-5 Assistant can generate
an alert to prompt field office personnel to enter a reason in the “Additional Remarks”
                                                                          14
field, it will only do so if no other text has been entered in that field. We believe SSA
would benefit from adding a separate “Reason” field to SS-5 Assistant, which would
prompt personnel to enter the required information. In addition, we believe having a
drop-down menu in the “Reason” field with common reasons why a U.S.-born applicant
age 12 or older had not been assigned an SSN could better assist field office
personnel. By documenting a reason, SSA is taking an additional step to ensure the
applicant is not trying to obtain another SSN or trying to assume a false identity.



11
   Eight of the 36 noncitizens in our sample were processed using SS-5 Assistant. These eight were
processed before the addition of the stand-alone screen for foreign-born applicants alleging U.S.
citizenship.
12
     POMS, section RM 00202.055(D)(4) and SS-5 Assistant Release 2 User Guide.
13
  Of the 45 instances we identified where SSA did not document why U.S.-born applicants had not been
assigned an SSN, field office personnel processed 42 applications through MES and 3 in SS-5 Assistant.
14
     SS-5 Assistant Release 2 User Guide.
Page 6 - The Commissioner


SSA policy does not require that field office personnel document why foreign-born U.S.
citizens age 12 or older had not been assigned an original SSN. While we
acknowledge there are legitimate reasons why a foreign-born U.S. citizen may not have
obtained an SSN by age 12, we believe SSA should hold these individuals to the same
standard as U.S.-born applicants. As such, we believe SSA could further reduce the
potential for improper SSN attainment by requiring that field office personnel enter a
reason for foreign-born U.S. citizens age 12 or older.

Field Offices Did Not Always Require and/or Document Adequate Evidence to
Process Original SSN Applications

SSA policy requires that applicants for an original SSN submit at least two documents
                                                   15
as evidence of age, identity, and U.S. citizenship. Furthermore, the identity document
must be current. 16 Finally, SSA personnel are required to document in MES/SS-5
Assistant sufficient descriptions of evidence presented with the SSN applications.
However, we identified 10 (3.6 percent) instances from the 275 SSNs tested in which
field office personnel did not always require and/or document adequate evidence to
process original SSN applications for U.S. citizens age 12 or older. 17 As such, we
estimate SSA did not always document adequate evidence to process about
870 original SSN applications during FY 2005.

We identified instances in which either applicants submitted only one document as
evidence of age, identity, and citizenship or the identity evidence provided did not meet
                            18
SSA policy requirements. For example, we identified one applicant who submitted
only one document, a U.S. passport, as evidence. While a U.S. passport is acceptable
evidence of age and citizenship, another document is needed to substantiate identity.
We believe it is imperative for field office personnel to properly document evidence of
age, identity, and citizenship to prevent the improper assignment of SSNs. SSA has
taken steps to assist field office personnel in doing so by implementing SS-5 Assistant,
which requires that field office personnel enter appropriate evidence of age, identity,
and citizenship before they can process an SSN application. While SS-5 Assistant
should assist field office personnel in properly documenting the required evidence, we
believe SSA should reemphasize to field office personnel the importance of requiring
and/or documenting adequate evidence when processing SSN applications for
U.S. citizens age 12 or older and take corrective action to address performance
problems or training needs when Agency personnel do not comply with this
requirement.

15
  POMS, section RM 00203.020(2). One document, such as a U.S. birth certificate, can substantiate age
and citizenship, but a separate document must substantiate identity. A birth certificate cannot substantiate
identity. Therefore, a total of two documents must be presented as evidence.
16
     POMS, section RM 00203.200(C)(3).
17
     Field office personnel processed 2 of the 10 applications using SS-5 Assistant.
18
   We acknowledge the possibility that applicants could have presented the appropriate documents, but
field office personnel failed to document all of the evidence presented.
Page 7 - The Commissioner


Field Offices Did Not Routinely Verify Reports of Birth Abroad

SSA policy requires that field office personnel verify the authenticity of birth records of
                                                                            19
U.S.-born citizens age 12 or older who are applying for an original SSN. However,
policy does not require that personnel verify the authenticity of Reports of Birth Abroad
(Forms FS-240, FS-545, and DS-1350) 20 unless they believe the document is not
authentic. 21 We believe SSA should hold U.S. citizens born abroad to the same
standard as individuals born in the United States.

We believe verifying Reports of Birth Abroad with the Department of State could reduce
the potential that some noncitizens, claiming to be U.S. citizens born abroad, could
submit counterfeit documents to help them obtain an original SSN. As such, we believe
SSA should routinely verify the authenticity of birth records of U.S. citizens born abroad.
Field office personnel with whom we spoke agreed that requiring such verification would
help prevent SSA from assigning an SSN to an individual who already has an SSN and
to preclude an individual from assuming a false identity.

CONCLUSION AND RECOMMENDATIONS

Despite SSA’s controls to prevent improper SSN assignment to individuals age 12 or
older, it is at-risk to such activity when field office personnel do not fully comply with
policies and procedures. We recognize SSA’s efforts cannot eliminate the potential
that some individuals may inappropriately acquire and misuse an SSN. Nonetheless,
we believe SSA has a stewardship responsibility to ensure compliance with all policies
and procedures. We believe SSA would benefit by taking additional steps to strengthen
SSN integrity and reduce its risk of exposure to improper SSN card issuance and
misuse and identity theft.

Accordingly, we recommend that SSA:

1. Correctly code SSA records for the 36 noncitizens who field office personnel
   incorrectly classified as U.S. citizens. We will provide further details regarding these
   individuals under separate cover.

2. Consider adding a “Reason” field in SS-5 Assistant to document why U.S. citizens
   age 12 or older had not applied for an SSN. Specifically, consider adding a
   drop-down menu with examples of legitimate reasons as to why U.S. citizens age
   12 or older had not been assigned an original SSN to the “Reason” field in
   SS-5 Assistant.


19
     POMS, section RM 00202.055(D)(3).
20
  The Department of State issues Reports of Birth Abroad to individuals who were born outside the United
States and acquired U.S. citizenship at birth.
21
     POMS, section RM 00203.750(H).
Page 8 - The Commissioner


3. Consider requiring that field office personnel document why foreign-born U.S.
   citizens age 12 or older had not been assigned an SSN.

4. Reemphasize to field office personnel the importance of requiring and/or
   documenting adequate evidence when processing SSN applications for U.S.
   citizens age 12 or older and take corrective action to address performance problems
   or training needs when Agency personnel do not comply with this requirement.

5. Consider coordinating with the Department of State to verify all Reports of Birth
   Abroad.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed or agreed in principle with our recommendations. We believe SSA’s
planned actions adequately address our concerns. The full text of SSA’s comments is
included in Appendix D.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sample Appraisal
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
DHS    Department of Homeland Security
EEVS   Employment Eligibility Verification System
FY     Fiscal Year
MES    Modernized Enumeration System
POMS   Program Operations Manual System
SAVE   Systematic Alien Verification for Entitlements
SSA    Social Security Administration
SSN    Social Security Number
                                                                               Appendix B

Scope and Methodology
To accomplish our objective, we

•   reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures;

•   reviewed prior audit reports;

•   obtained a data extract of 23,924 original Social Security numbers (SSN) assigned
    to U.S. citizens age 12 or older during Fiscal Year 2005;

•   randomly selected a sample of 275 records from the data extract; 1

•   reviewed Form SS-5s, Application for a Social Security Card, for the sample items;

•   reviewed the Numidents for the sample items;

•   verified the U.S.-born births with State Bureaus of Vital Statistics;

•   verified the Reports of Birth Abroad with the Department of State; and

•   visited four field offices in Maryland, New York, and Texas. During our site visits, we
    interviewed staff to determine their procedures for assigning U.S. citizens age 12 or
    older an original SSN.

The SSA entity audited was the Office of the Deputy Commissioner for Operations.
Our review of internal controls was limited to SSA’s policies and procedures for
assigning original SSNs to U.S. citizens age 12 or older. We conducted our work from
June through December 2006 in accordance with generally accepted government
auditing standards.




1
 Our sample of 275 records contained 137 foreign-born and 127 U.S.-born individuals age 12 or older
who were assigned an original SSN during FY 2005. We did not analyze 11 sample records because we
subsequently determined that SSA did not assign these individuals an original SSN during the audit
period.
                                                                 Appendix C

Sample Appraisal
Table 1: Sample Results and Projection Where the Social Security Administration
         Did Not Comply With Policies and Procedures When Processing
         Original Social Security Number Applications for U.S. Citizens Age 12 or
         Older During Fiscal Year 2005

                     SAMPLE ATTRIBUTE APPRAISAL
 Total Population of Original Social Security Numbers (SSN)
 Assigned to U.S. Citizens Age 12 or Older During Fiscal Year
                                                                    23,924
 (FY) 2005
 Sample Size                                                           275
                              Attribute Projection
 Number of Instances in Sample Where the Social Security
 Administration (SSA) Did Not Comply With Policies and
                                                                        89
 Procedures When Processing Original SSN Applications for U.S.
 Citizens Age 12 or Older During FY 2005
 Estimate of Instances in Population Where SSA Did Not
                                                                     7,743
 Comply With Policies and Procedures
 Projection—Lower Limit                                              6,634
 Projection—Upper Limit                                              8,920
 Projections made at the 90-percent confidence level.




                                        C-1
Table 2: Sample Results and Projection of Compliance Errors Identified

                         SAMPLE ATTRIBUTE APPRAISAL
 Total Population of Original SSNs Assigned to U.S. Citizens Age 12 or
 Older During FY 2005                                                    23,924
 Sample Size                                                               275
                                Attribute Projections
 Number of Instances in Sample Where SSA Incorrectly Coded
                                                                            36
 Noncitizens as U.S. Citizens During FY 2005
 Estimate of Instances in Population Where SSA Incorrectly Coded
                                                                          3,132
 Noncitizens as U.S. Citizens During FY 2005
 Projection—Lower Limit                                                   2,367
 Projection—Upper Limit                                                   4,042
                              Attribute Projections
 Number of Instances in Sample Where SSA Did Not Document Why
                                                                            45
 Applicants Had Not Been Assigned an SSN During FY 2005
 Estimate of Instances in Population Where SSA Did Not Document
                                                                          3,915
 Why Applicants Had Not Been Assigned an SSN During FY 2005
 Projection—Lower Limit                                                   3,066
 Projection—Upper Limit                                                   4,894
                                Attribute Projections
 Number of Instances in Sample Where SSA Did Not Require and/or
 Document Adequate Evidence to Process Original SSN Applications            10
 During FY 2005
 Estimate of Instances in Population Where SSA Did Not Require
 and/or Document Adequate Evidence to Process Original SSN                 870
 Applications During FY 2005
 Projection—Lower Limit                                                     477
 Projection—Upper Limit                                                   1,453
 Projections made at the 90-percent confidence level.




                                        C-2
                  Appendix D

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      June 8, 2007 Refer                                           Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Original Social Security Numbers
           Assigned to United States Citizens Age 12 or Older” (A-08-07-17043)--
           INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
content and recommendations are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




                                               D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ORIGINAL SOCIAL SECURITY NUMBERS ASSIGNED TO UNITED
STATES CITIZENS AGE 12 OR OLDER" A-08-07-17043


Thank you for the opportunity to review and comment on the draft report findings and
recommendations. We agree that being in compliance with all enumeration policies and
procedures will strengthen the integrity of the Social Security number (SSN) and improve our
stewardship responsibilities. We appreciate the reports acknowledgement of our efforts to
establish specialized procedures for these applicants. We are also encouraged that the report
found that the implementation of the SS-5 Assistant is helping to ensure enumeration policies are
followed. SSA plans to further enhance our enumeration systems that include the replacement of
the SS-5 Assistant with a Modernized Enumeration System (MES) redesign, now known as
Social Security Number Application Process (SSNAP) in late 2008. The enhancements currently
being considered will address many of the issues identified in this report.

Because the process for assigning original SSNs to United States (U.S.) citizens age 12 or older
changed during the course of the audit we are concerned that this audit does not represent the true
results received when personnel process an original SSN application. Specifically, the cases
included in this sample were from SSN’s issued during fiscal year (FY) 2005. Since Field Office
(FO) personnel were not mandated to use the SS-5 Assistant until March 1, 2005, we believe that
the randomly sampled records should have been from applications submitted after this date.

Our responses to the specific recommendations as well as some technical comments are provided
below.

Recommendation 1

The Social Security Administration (SSA) should correctly code SSA records for the
36 noncitizens who field office personnel incorrectly classified as U.S. citizens. We will provide
further details regarding these individuals under separate cover.

Response

We agree. Corrective action will be taken upon receipt of details from OIG.

Recommendation 2

SSA should consider adding a “Reason” field in SS-5 Assistant to document why U.S. citizens
age 12 or older had not applied for an SSN. Specifically, consider adding a drop-down menu
with examples of legitimate reasons as to why U.S. citizens age 12 or older had not been
assigned an original SSN to the “Reason” field in SS-5 Assistant.




                                               D-2
Response

We agree in principle with this recommendation. However, we plan to implement a different
resolution. We have redesigned a draft MES screen in SSNAP. The SSNAP’s screen, as drafted,
asks “U.S. citizens, age 12 or older, applying for a SSN for the first time” a series of questions
designed to determine if the applicant has already been assigned an SSN. If a question is
answered “yes,” it will prompt the SSA employee to obtain an explanation, to describe the
evidence provided, and to verify the allegation before an SSN can be processed. We think that
asking a series of targeted questions to elicit information about possible situations in which an
applicant may have been assigned an SSN is more useful than trying to list reasons a U.S. citizen
may not have been assigned an SSN. Further, the most likely reason a U.S. citizen would not
have an SSN is that he or she resided outside the U.S. for an extended period of time.” This
question, “Has the number holder ever lived outside the U.S. for a prolonged period of time?” is
already asked in both SS-5 Assistant and the newly drafted SSNAP screen.

Recommendation 3

SSA should consider requiring that field office personnel document why foreign-born U.S.
citizens age 12 or older had not been assigned an SSN.

Response

We agree that documentation to support an allegation that a foreign-born U.S. citizen age 12 or
older has not been assigned an SSN will improve the integrity of the SSN process. We intend to
make that change to policy and procedures effective with the implementation of SSNAP in late
2008.

Recommendation 4

SSA should reemphasize to field office personnel the importance of requiring and/or
documenting adequate evidence when processing SSN applications for U.S. citizens age 12 or
older and take corrective action to address performance problems or training needs when Agency
personnel do not comply with this requirement.

Response

We agree. We will issue a reminder to FO personnel, including a discussion of the planned
additional controls within MES/SSNAP that will ensure compliance with this requirement.

Recommendation 5

SSA should consider coordinating with the Department of State to verify all Reports of Birth
Abroad.




                                               D-3
Response

We agree that verifying all Reports of Birth Abroad documents submitted as evidence of age in
the enumeration process could improve the integrity of the SSN assignment process. We have
worked with the Department of State (State) for several years to develop a more efficient manual
process, as well as an electronic process to verify birth documents; however, we cannot
unilaterally change our current agreement with them. Under our current agreement, they have
agreed to verify only a limited number of documents submitted as evidence for claims and
enumeration purposes. They have advised us that law enforcement verifications take precedence
over SSA work. Any increase in the volume of requests would violate our agreement with them
and likely delay the verification of the documents that we have reason to believe are fraudulent.

We would also need to evaluate the SSN fraud risk that has occurred and is associated with this
proposed procedure. Implementation of verifying all birth records for U.S. born applicants has
significantly impacted SSA resources, workloads and SSN processing times. We are concerned
that implementing procedures to verify all Reports of Birth Abroad would place overwhelming
burden on FO staff.

In an effort to further address this recommendation, within one month of the issuance of the final
report we will provide a copy to State and ask that they work with us to develop an electronic
verification process for these documents. However, as noted above, without their agreement and
an evaluation on workload and resources, we are not in a position to implement this
recommendation at this time.




                                               D-4
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Janet Matlock, Auditor in Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17043.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
